HHS/OIG, Audit -"Review of North Dakota Medicaid Program - Nursing Homes
as Institutions for Mental Diseases,"(A-07-04-02017)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of North Dakota Medicaid Program - Nursing Homes as Institutions for Mental Diseases," (A-07-04-02017)
December 8, 2004
Complete
Text of Report is available in PDF format (360 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether:  (1) North Dakota was monitoring nursing homes to ensure
compliance with institutions for mental disease (IMD) criteria; and (2) nursing homes participating in the North Dakota
Medicaid program were IMDs.  We reviewed nursing homes participating in the Medicaid program during Federal fiscal
year 2003.  North Dakota needs to establish specific controls to monitor nursing homes for compliance with IMD criteria.  We
recommended that North Dakota further monitor and evaluate, with qualified medical personnel, the four nursing homes that
may be IMDs.  North Dakota did not agree with our recommendation to establish specific controls to monitor nursing
homes for compliance with IMD criteria.